f\ppet^d( x
[Jn'ittd 5-tzdes
for -tte.

A

hvrt oyC Appeals

f;Ptn tira»-+ d-ecisioa

Mo. /9-d-OSHH

Case: 19-20824

Document: 00515913918

Page: 1

Date Filed: 06/24/2021

tHmteti States Court of appeals
for tfje Jftftl) Circuit
No. 19-20824

A True Copy
Certified order issued Jun 24,2021

dvA W. OtMjCx
Clerk, ills. Court of Appeals, Fifth Circuit

Steven Wayne Isbel,

Petitioner—Appellant,
versus
Bobby Lumpkin, Director, Texas Department of
Criminal Justice, Correctional Institutions Division,
Respondent—Appellee.
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:16-CV-2836
ORDER:
IT IS ORDERED that Appellant’s motion for a certificate of
appealability is DENIED.

/s/Edith Brown Clement
Edith Brown Clement
United States Circuit Judge

ftfpesidix ft

fyjppcrvl/K

3

(JnbteA Status p)strict

Court

-Cbr thJL Southern. P/vision n[

'Ido^Sto^

t> I v (J>

XUds Loru

(W Mo. It! I** - c*-

OZ £

L^xoS

United States District Court
Southern District of Texas

ENTERED
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
STEVEN WAYNE ISBEL,
(TDCJ-CID #01859521)
Petitioner,

BOBBY LUMPKIN,
Respondent.

David J. Bradley, Clerk

§
§
§
§
§
§

§

VS.

December 11,2020

CIVIL ACTION NO. H-16-2836

§
§
§
§

ORDER

The petitioner, Steven Wayne Isbel, sought habeas corpus relief under 28 U.S.C. § 2254,
challenging a state-court conviction for fraudulent use or possession of identifying information. On
September 20, 2018, this Court granted the respondent’s motion for summary judgment and
dismissed Isbel’s petition on the merits. (Docket Entry No. 44). OnJune 12,2019, the United States
Court of Appeals for the Fifth Circuit denied Isbel’s motion for a certificate of appealability.
(Docket Entry No. 53).
On October 29, 2019, Isbel moved for relief from the judgment under the “catchall
provision” of Rule 60(b). (Docket Entry No. 55). In his federal petition, Isbel presented seventeen
grounds for federal habeas relief. In ground fourteen, Isbel complained that he was deprived of a
fair trial when the trial court failed to grant Isbel’s motion to dismiss his appointed counsel and
when the trial court did not investigate the conflict of interest between counsel and client. (Docket

O:\RAOWDG\2016\16-2836.o01.wpd

3

Entry No. 1, p. 17). Isbel further complained that he received ineffective assistance when defense
counsel failed to advise the court of the conflict of interest between counsel and client. (Id.).
In its order entered on September 20,2018, this Court found that if Isbel attempted to raise
this claim in a second state application, the Court of Criminal Appeals would dismiss such an
application as an abuse of the writ. As Isbel had not shown cause or prejudice for failing to present
this claim in his initial state application, or that a fundamental miscarriage of justice would result
if this Court did not consider the claim, this Court found that consideration of this claim was
procedurally barred. (Docket Entry No. 44, pp. 76-77).
AEDPA limits the circumstances under which a state prisoner may file a second or
successive application for habeas relief in federal court. In general, a later petition is successive
when it raises a claim challenging the petitioner’s conviction or sentence that was or could have
been raised in an earlier petition or otherwise constitutes an abuse of the writ. Leal Garcia v.
Quarterman, 573 F.3d 214, 222 (5th Cir. 2009); Crone v. Cockrell, 324 F.3d 833, 836-37 (5th Cir.
2003). To raise a new claim, the petitioner must show that the successive application is based on:
(1) a new rule of constitutional law made retroactive to cases on collateral review by the Supreme
Court; or (2) newly discovered evidence that, if proven and viewed in light of the evidence as a
whole, would be sufficient to establish by clear and convincing evidence that no reasonable fact
finder would have found him guilty of the offense. 28 U.S.C. § 2244(b)(2). Before a petitioner may
file his successive petition, however, a three-judge panel of the court of appeals must determine
whether the application makes the requisite prima facie showing. See 28 U.S.C.
§ 2244(b)(3)(A)-(B). Section 2244(b)(3)(A) constitutes a bar to the district court’s jurisdiction to
consider a successive habeas petition unless the court of appeals has first granted the petitioner

O:\RAOWDG\2016\ 16-2836.o01 .wpd

2

permission to file such a petition. United States v. Key, 205 F.3d 773, 774 (5th Cir. 2000) (per
curiam) (section 2255 motion); see also Crone v. Cockrell, 324 at 836 (section 2254 habeas
petition).
A Rule 60(b) motion constitutes a successive habeas petition when it attacks a judgment on
the merits of a previously filed petition. Will v. Lumpkin,

F.3d___, 2020 WL 6192980 (5th Cir.

Oct. 22,2020). “[Wjhen a court order analyzes whether ‘there exist or do not exist grounds entitling
a petitioner’ to habeas relief—in other words, makes a merits determination—a Rule 60(b) motion
contesting this order (even on procedural grounds) necessarily presents a successive habeas claim.”
Id. at *5 (citing Gonzalez v. Crosby, 545 U.S. 524, 531-32 n.4 (2005)). If a motion simply “attacks
the federal court’s previous resolution of a claim on the merits,” it “is effectively indistinguishable
from alleging that the movant is, under the substantive provisions of the statutes, entitled to habeas
relief,” and should be considered a second or successive habeas application. Gonzalez, 545 U.S. at
532 (emphasis deleted). Here, the Court denied Isbel’s petition on the merits.
A Rule 60(b) motion that does not challenge “the substance of the federal court’s resolution
of a claim on the merits, but some defect in the integrity of the federal habeas proceedings” is not
a successive habeas petition. Gonzalez, 545 U.S. at 532. A Rule 60(b) motion is proper if “neither
the motion itself nor the federal judgment from which it seeks relief substantively addresses federal
grounds for setting aside the movant’s state conviction.” Id. at 533. If the purported Rule 60(b)
motion either 1) “attacks a defect in the integrity of the federal habeas proceeding” or 2) “attacks
a procedural ruling that precluded a merits determination,” then the district court may properly
consider it under Rule 60(b). Gilkers v. Vannoy, 904 F.3d 336, 344 (5th Cir. 2018) (internal
quotations omitted).

O:\RAOWDG\2016\16-2836.o01.wpd

3

Isbel challenged this Court’s determination that his trial court error claim (Ground 14) was
procedurally barred. Isbel’s motion challenged a “defect in the integrity of the federal habeas
proceedings,” Gonzalez, 545 U.S. at 532. Because he did not attack the Court’s ruling on the merits
of his previous petition, his Rule 60(b) motion did not constitute a successive habeas petition.
In his motion for relief from judgment, Isbel stated that this claim was not procedurally
barred because he actually presented this claim in a motion to supplement his state application,
which was filed on January 19, 2016. Isbel states that, and state court records show that, the state
court granted his motion to supplement on February 8, 2016. (Docket Entry No. 26-1, p. 55). The
state habeas court found that, “44. The applicant fails to offer any proof, other than conclusory
allegations in support of his claims presented in a supplemental application filed on January 19,
2016.” (Docket Entry No. 26-2, p. 54). The state court rejected Isbel’s trial court error claims. In
denying Isbel’s motion for relief from judgment, this Court found that Isbel failed to show that the
state court’s determination was contrary to, or involved an unreasonable application of, or was an
unreasonable determination of the facts based on the evidence in the record. Isbel is not entitled to
habeas relief on this claim.
This Court found that Isbel had shown no basis for this Court to reconsider his trial court
error claim. Alternatively, this Court found that Isbel was not entitled to habeas relief on this claim.
This Court denied the motion for relief from judgment, for the reasons previously set forth above
and in the order entered on September 20, 2018. (Docket Entry No. 64).
Isbel sought a certificate of appealability to appeal this Court’s denial of his Rule 60(b)
motion for relief from the final judgment denying his 28 U.S.C. § 2254 petition. The Fifth Circuit
stated:

O:\RAOWDG\2016\16-2836.o01.wpd

4

The district court made no COA ruling with respect to the denial of
Isbel’s Rule 60(b) motion. Consequently, this court lacks jurisdiction
to grant or deny a COA as to that ruling. See Black v. Davis, 902 F.3d
541,545 (5th Cir. 2018). Accordingly, Isbel’s motion is held in
abeyance. The case is REMANDED for the limited purpose of
allowing the district court to decide in the first instance whether to
issue a COA in connection with its November 6,2019 order denying
Isbel’s Rule 60(b) motion.
(Docket Entry No. 64).
Considering the record in this case and pursuant to Fed. R. App. P. 22(b), Rule 11(a) of the
Rules Governing §§ 2254 and 2255 proceedings, and 28 U.S.C. § 2253(c), a certificate of
appealability is DENIED. The Court finds that Isbel has failed to show (1) that reasonable jurists
would find the Court’s “assessment of the constitutional claims debatable or wrong,” or (2) that
reasonable jurists would find “it debatable whether the [Rule 60(b) motion] states a valid claim of
the denial of a constitutional right” and “debatable whether [the Court] was correct in its procedural
ruling.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
SIGNED at Houston, Texas, on

December 10

, 2020.

u

VANESSA D. GILMORE
^
UNITED STATES DISTRICT JUDGE

O :\RAO\VDG\2016\16-2836.o01 .wpd

5

Additional material
from this filing is
available in the
Clerk's Office.

